CERTIFICATE OF COMPLIANCE
Case No.
Caption: Ogden v. Tice, et al.
As required by Supreme Court Rule 33.1(h),
I certify that the document contains 4,791 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 27, 2020.

iovann
Record

Sworn to before me on
April 27, 2020
NADIA R. OSWALD HAMID •
Notary Public, State of New York
No. 010S6101366
Qualified in Kings County
Commission Expires November 10, 2023

Notary Public

ciano
ss, Inc.

